<html>
<title> - [H.A.S.C. No. 111-47]  EFFECTIVE COUNTERINSURGENCY:
THE ADMINISTRATION'S PERSPECTIVE ON THE FUTURE OF THE U.S.-PAKISTAN MILITARY PARTNERSHIP</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 111-47]

                      EFFECTIVE COUNTERINSURGENCY:

                    THE ADMINISTRATION'S PERSPECTIVE

                   ON THE FUTURE OF THE U.S.-PAKISTAN

                          MILITARY PARTNERSHIP

                               __________

                                HEARING

                               BEFORE THE

                             FULL COMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 29, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
53-208                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, April 29, 2009, Effective Counterinsurgency: The 
  Administration's Perspective on the Future of the U.S.-Pakistan 
  Military Partnership...........................................     1

Appendix:

Wednesday, April 29, 2009........................................    31
                              ----------                              

                       WEDNESDAY, APRIL 29, 2009
 EFFECTIVE COUNTERINSURGENCY: THE ADMINISTRATION'S PERSPECTIVE ON THE 
            FUTURE OF THE U.S.-PAKISTAN MILITARY PARTNERSHIP
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Boucher, Ambassador Richard A., Assistant Secretary of State for 
  South and Central Asian Affairs, U.S. Department of State......     7
Flournoy, Hon. Michele, Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     3
Winnefeld, Vice Adm. James A., Jr., USN, Director of Strategic 
  Plans and Policy, Joint Chiefs of Staff........................     5

                                APPENDIX

Prepared Statements:

    Boucher, Ambassador Richard A................................    42
    Flournoy, Hon. Michele, joint with Vice Adm. James A. 
      Winnefeld..................................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 EFFECTIVE COUNTERINSURGENCY: THE ADMINISTRATION'S PERSPECTIVE ON THE 
       FUTURE OF THE UNITED STATES-PAKISTAN MILITARY PARTNERSHIP

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, April 29, 2009.
    The committee met, pursuant to call, at 1:02 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good afternoon. Today we have with us the 
Honorable Michele Flournoy, Under Secretary of Defense for 
Policy, Department of Defense; Vice Admiral James Winnefeld, 
Junior, Director of the Strategic Plans and Policy for the 
Joint Chiefs of Staff; Ambassador Richard Boucher, Assistant 
Secretary of State for the South and Central Asian Affairs for 
the Department of State. We thank you for being with us and 
being willing to address the future of American and Pakistan 
relationship. We are expecting votes in the very near future. 
And I am hopeful we can get most of your testimony in before we 
have to leave to vote. And we ask your indulgence while we are 
voting. This, however, will be the last series of votes today, 
as I understand it.
    So maybe we can expedite the hearing when we get back. This 
is an extremely important, and, of course, very timely hearing, 
and follows last week's hearing before this committee on this 
same topic with the outstanding panel of Pakistani experts, 
including General David Barno, who testified that Pakistan 
presents the U.S. with its greatest global strategic challenge. 
It also follows the release of the administration's latest 
Afghanistan-Pakistan strategy, as well as the administration's 
supplemental budget request for a new Pakistan 
Counterinsurgency Capabilities Fund (PCCF). Moreover, this 
hearing comes at a time when there is legislation pending in 
Congress that seeks to both expand U.S. assistance for Pakistan 
as well as impose limitations and conditions on U.S. security 
assistance to Pakistan. And as we are here today, it appears 
security conditions in Pakistan have become even more 
worrisome, given the Taliban's recent eastward advance from the 
Swat Valley to Buner, only 60 miles or so from Islamabad.
    I agree with General Barno, Pakistan may well pose the 
greatest strategic challenge facing us today, with serious 
implications for U.S. national security in Afghanistan as well 
as the entire region. I am pleased that Congress and the region 
have both prioritized issues involving Pakistan, and are 
committed to strengthening the U.S.-Pakistan partnership. But 
these issues are complex. Progress is not likely to come easy. 
I believe the administration's recent Afghanistan-Pakistan 
strategy is a step in the right direction. However, strategy 
alone does not guarantee success. The administration continues 
to request significant resources from Congress and the American 
people for efforts in Pakistan.
    Following 9/11, Pakistan has received almost $12 billion 
from our country, including about $6.4 billion in Department of 
Defense (DOD) Coalition Support Fund (CSF) reimbursements. I 
hope the witnesses will elaborate on the fund, that is the 
Counterinsurgency Capabilities Fund, and tell us what military 
objections it will receive and why it should fall under the 
authority of the Department of Defense rather than under the 
authority of the State Department. With that, I turn to my 
friend, the gentleman from New York.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you very much, Mr. Chairman. I will try 
do this as quickly as possible. I would ask unanimous consent 
my entire statement be entered in the record. Let me very 
quickly welcome our very distinguished panelists, particularly 
Madam Secretary. This is, I think, your third appearance in the 
first 100 days. You must be going for a record. And you are 
probably well on your way to setting that. But we thank all of 
you for being here to discuss what the chairman rightfully 
described as a very important issue. And certainly this hearing 
is timely, as the security situation in Pakistan sadly 
continues to be at best volatile.
    And as you look at, as the chairman mentioned, the movement 
of Taliban elements eastward towards Islamabad, some of their 
activities on the streets of Lahore, we can all understand why 
in her recent testimony, Secretary of State Clinton noted that 
the Taliban, in her judgment, and I couldn't agree more, pose 
an existential threat to that Nation. In the meantime, here on 
Capitol Hill, there has been what I will call a House version 
of the so-called Kerry-Lugar legislation that was recently 
introduced by the chairman of the House Foreign Affairs 
Committee. I think it is fair to say that unlike its Senate 
counterpart, this particular bill calls for what can be fairly 
described as heavy limitations and conditions on U.S. security 
assistance to Pakistan.
    Some have expressed concerns that I share, that this 
proposal as currently drafted is disrespectful of Pakistan's 
sovereignty, it would unnecessarily constrain the Department of 
Defense amidst what is fairly described as an already fluid and 
dynamic situation in Pakistan. We are also in the process of 
scrubbing the President's fiscal year 2009 wartime emergency 
supplemental request, which includes Coalition Support Funds to 
reimburse partner nations such as Pakistan for their efforts in 
the war on terrorism. This measure also provides a new 
authority and funding stream called the Pakistan 
Counterinsurgency Capabilities Fund, or PCCF, which is a tool, 
very ably designed in my judgment, to improve the capacity and 
capabilities of Pakistan's security forces to deny safe haven 
and defeat Al Qaeda, Taliban, and other extremist groups within 
the Pakistan territory.
    Given all these events, as I noted, this committee is 
rightly focused on Pakistan and the challenges before us. I 
would just refer everyone who has some strange interest in my 
comments of the past week, where we outlined my support of the 
President's strategic direction for Pakistan, and some of the 
questions and challenges that I hope we can explore that lie 
ahead. With that, Mr. Chairman, as I said, let's get to the 
testimony, and I will again welcome our panelists here today, 
and I look forward to their comments and yield back.
    The Chairman. Thank you so much. The Honorable Michele 
Flournoy, would you please lead off? And again, I know we are 
asking a lot of you in your testimony before us, but it is 
always so helpful. We welcome you back.

  STATEMENT OF THE HON. MICHELE FLOURNOY, UNDER SECRETARY OF 
         DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Flournoy. Thank you, Mr. Chairman and Congressman 
McHugh. It is good to be back and see you again. And thank you 
for inviting us here today. I am glad to have the chance to 
discuss efforts to strengthen the U.S.-Pakistan military 
partnership, which is a vital component of the Administration's 
Afghanistan-Pakistan strategy. Let me start by laying out the 
strategic context. In our recent strategy review, we went back 
to the most basic question, what are our national interests in 
Afghanistan-Pakistan, in that region? We concluded that we have 
a vital interest in defeating Al Qaeda and its extremist allies 
in the border region. We must deny them safe havens from which 
to launch attacks against the United States and our allies. You 
all know that the situation in Pakistan is deteriorating.
    The insurgency along Pakistan's western border has been 
steadily expanding, and militants are increasingly in a 
position to threaten the Pakistani heartland. In the Swat 
Valley, extremists have already exercised effective control. 
And last week militants established bases in Buner, only 60 
miles from Islamabad. With instability increasing, many 
Pakistani civilians and political leaders fear violent 
retaliation if they openly oppose extremist groups. Meanwhile, 
opportunities are growing for Al Qaeda and its associates. From 
safe havens within Pakistan, they can plan and stage attacks 
against our troops in Afghanistan, and potentially against the 
United States itself.
    Events on the ground are unfolding rapidly. With attacks in 
the Pakistani heartland increasing, Pakistan's civilian 
government has come under urgent pressure to address this 
growing crisis. And they are taking steps to do so, in part by 
launching the recent military offensives.
    The Chairman. Excuse me, could you get just a little bit 
closer to the microphone, please?
    Secretary Flournoy. I am sorry. In this context, further 
strengthening our partnership with Pakistan, including our 
military partnership, is absolutely critical. The Pakistani 
Government is undertaking concrete actions to demonstrate their 
commitment to counterinsurgency and counterterrorism. We must 
show our Pakistan partners that if they take decisive action 
against extremists, we will give them the support they need. As 
you know, Mr. Chairman, forging an effective partnership with 
Pakistan's military has not always been straightforward. 
Despite our efforts to reduce tension between Pakistan and 
India, the Pakistan security forces have historically viewed 
India, and not the militants, as Pakistan's most existential 
threat. And they have focused their resources accordingly. 
There has also been something of a trust deficit in U.S.-
Pakistan relationships.
    From Pakistan's perspective, U.S. support has been 
inconsistent over the years. We have oscillated between 
treating Pakistan as a pariah and as a credible ally. There is 
mistrust on our side too. After years of investment in 
Pakistan's military, we have seen some progress in countering 
violent extremism, but we have also seen many setbacks. Forging 
an effective military partnership with Pakistan has also been 
hampered by a relative lack of counterinsurgency capabilities 
on the Pakistan side. Nonetheless, Mr. Chairman, we believe 
that right now it is more important than ever to strengthen our 
military partnership with Pakistan. We share common interests. 
If the militants were to cause the Pakistani Government to 
falter, this would be as devastating to the Pakistani people 
and security forces as it would be for us. It also bears 
emphasizing that Pakistan's security forces have made many 
sacrifices in their efforts to combat insurgency. Thousands of 
military personnel as well as thousands of civilians have lost 
their lives. And we have had some notable successes when we 
have worked closely with them. For instance, our work with the 
Frontier Corps has resulted in improved cross-border 
coordination, has increased their effectiveness and operations 
in many agencies. But the Pakistan military still has only 
limited capacity to conduct effective counterinsurgency 
operations. Unless we provide them with better equipment and 
training, such operations will continue to lead to short-term 
progress, but not necessarily enduring results.
    Last week, Mr. Chairman, you heard testimony from three 
experts, all underscoring the urgency of the situation in 
Pakistan. We share that sense of urgency. It is vital that we 
act now to provide Pakistan with the capabilities they so 
critically need. The proposed title 10 Pakistan 
Counterinsurgency Capabilities Fund is absolutely crucial to 
this effort. The PCCF would give General Petraeus, the U.S. 
Central Command (CENTCOM) combatant commander, the authority 
and funding required to effectively build the Pakistan 
military's counterinsurgency capabilities in the kind of time 
frame required. Title 10 PCCF will bring responsibilities, 
authorities, and funding into alignment. The PCCF is a critical 
tool that will allow our military assistance in Pakistan to be 
flexible, focused, and fast, providing resources when and where 
they are most needed in an urgent and rapidly evolving 
situation.
    With the PCCF, we can fully fund, plan, train, and equip 
efforts involving Pakistan's paramilitary Frontier Corps, its 
Special Forces, and expand assistance to the Pakistani Army. 
Establishing a dedicated funding stream will also signal our 
seriousness and our commitment to Pakistan, which is vital at 
this moment when again, Pakistan is demonstrating its 
commitment to taking assertive action against insurgents. I 
want to make clear that we see PCCF as complementing existing 
authorities and funding streams, not replacing them.
    Foreign Military Financing (FMF) continues to strengthen 
U.S.-Pakistani bilateral relations over the longer term, but 
beyond the urgent needs the PCCF is designed to meet. 
Similarly, Coalition Support Funds remain vital to sustaining 
Pakistan's military tempo of operations in the border region. 
We must also address the historic imbalance in funding to 
Pakistan by increasing nonmilitary forms of assistance. We 
fully support the establishment of Reconstruction Opportunity 
Zones in Pakistan, and we are hopeful that the Kerry-Lugar bill 
will help boost rule of law and sustainable economic 
development efforts. Nonetheless, the title 10 PCCF is crucial 
to our strategy. As General Petraeus, Ambassador Holbrooke, and 
Ambassador Patterson have all noted, it is through the PCCF 
that we can provide our commanders on the ground the 
flexibility they need to assist the Pakistani military.
    Given the rapidly changing situation on the ground, Mr. 
Chairman, we do oppose rigid conditionality, such as that which 
is proposed in H.R. 1886. While we applaud the goal of 
increasing accountability, we believe that the bill as 
currently drafted is too inflexible, and would reduce our 
ability to adapt quickly as circumstances require. We are 
committed to continuously evaluating our own performance as 
well as that of our Pakistani partners. And to that end, we are 
developing measures of effectiveness that will allow us and you 
to hold us and our Pakistan partners accountable. Mr. Chairman 
and other distinguished members, terrorism and insurgency in 
Pakistan are growing, increasing the urgent threat to our 
troops in Afghanistan and to Americans here at home. The 
proposed PCCF is vital to increasing the effectiveness of our 
partnership with Pakistan's security forces at this critical 
moment in time. Thank you very much for having me here today.
    The Chairman. Thank you again.
    [The joint prepared statement of Secretary Flournoy and 
Admiral Winnefeld can be found in the Appendix on page 35.]
    The Chairman. Admiral Winnefeld.

 STATEMENT OF VICE ADM. JAMES A. WINNEFELD, JR., USN, DIRECTOR 
      OF STRATEGIC PLANS AND POLICY, JOINT CHIEFS OF STAFF

    Admiral Winnefeld. Good afternoon, Mr. Chairman and 
Congressman McHugh. I would like to also thank you for the 
opportunity to come testify today on ways to improve Pakistan's 
counterinsurgency capability. Under Secretary Flournoy has 
already covered the goals and the challenges that we face in 
Pakistan. From our point of view, this is really boiling down 
to a matter of Pakistani will and capability. While we use 
diplomacy to build trust and buoy Pakistan's will in this very 
important fight and defeating the extremist threats, our 
ability and our efforts to build Pakistani counterinsurgency 
capability in the middle of an ongoing fight are also a key 
element of our new strategy. The Pakistani military knows that 
it is a largely conventionally-based force fighting in a very 
nonconventional environment.
    And we have been down this road, as you very well know, 
ourselves. For Pakistan, as it was for us, change has not been 
easy in this type of fight or immediate. And it requires 
resources. And thus Pakistan needs the equipment and the 
training and the changes in doctrine that reflect the difficult 
lessons that we have learned over the last eight years. Thanks 
to your support, we have made some progress in our efforts to 
enable Pakistan's Frontier Corps and their other forces, 
including Special Forces and conventional forces, but both the 
pace and the scope of our efforts need to be increased.
    One way of doing this, as Under Secretary Flournoy 
mentioned, is through the PCCF. This is Title 10 authority that 
General Petraeus has requested, that Ambassador Patterson has 
endorsed, and that the President has submitted as part of his 
supplemental as essential to quickly and effectively building 
Pakistan's counterinsurgency capabilities, again, in the middle 
of a fight. It is urgently needed in this fight that is going 
on right now. We believe that it will be responsive and 
immediate, enabling our combatant commander General Petraeus, 
who has the authority and the responsibility for this fight on 
both sides of the border, to capitalize quickly on 
opportunities and to plug emergent capability gaps that we 
might discover.
    I would say that it will support U.S. troops who are in an 
ongoing effort in Afghanistan, because this threat clearly does 
not respect borders in this fight. And it will complement the 
other authorities that Under Secretary Flournoy mentioned that 
are designed to reimburse Pakistan for their operations, that 
are designed to build its long term defense capability both in 
the counterinsurgency (COIN) and other environments, and to 
improves its governance and development. It is very 
complementary.
    As I mentioned a moment ago, the Pakistanis also have to 
have the will, in addition to the capability, to use the COIN 
capability we give them. And in this light, I would like to 
make two points. First, we believe that with increased 
capability should come increased will. Current events, as we 
are all watching them unfold in Buner, will be a real test for 
Pakistani capability and will. And that only highlights the 
need for the kind of flexible authorities that PCCF would give 
to General Petraeus. We want to be prepared if there is some 
emergent, unanticipated requirement that would pop up that we 
need to fulfill, or if a new opportunity arises for us to be 
able to work even more closely with the Pakistani security 
forces. And PCCF will enable that.
    Second, we believe that publicly attaching conditions to 
our support will be detrimental to building Pakistani will to 
fight. And it will ultimately erode the trust that we are 
trying to build between our two nations. Rather, we believe 
that private engagement between our senior leadership is really 
the key to encouraging our partners, the Pakistanis, to use the 
assistance that we give to them wisely.
    So we appreciate the committee's willingness to consider 
this sort of unusual enactment of authority. We believe we 
can't afford to wait until next year to obtain the flexibility 
and agility that it provides to General Petraeus. And 
accordingly, we ask for your support in accelerating its 
implementation, and we will ensure that the accountability 
measures are in place so that these funds go exactly where they 
are intended to go, and that is into the COIN fight. Again, I 
would like to thank you and the members of the committee for 
your ongoing support for our troops and their mission, and I 
look forward to both your questions and your comments. Thank 
you, sir.
    The Chairman. Admiral, thank you very much.
    [The joint prepared statement of Admiral Winnefeld and 
Secretary Flournoy can be found in the Appendix on page 35.]
    The Chairman. Ambassador Boucher, why don't we go ahead and 
ask you for your testimony, and then we will break for the 
votes. I might say that the lack of full attendance here is due 
to the fact that there was a caucus for the House regarding the 
swine flu challenge that we have. People will be coming in 
shortly after we vote. Ambassador.

STATEMENT OF AMBASSADOR RICHARD A. BOUCHER, ASSISTANT SECRETARY 
 OF STATE FOR SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ambassador Boucher. Thank you, Mr. Chairman. Mr. Chairman, 
Congressman McHugh----
    The Chairman. Get real close.
    Ambassador Boucher [continuing]. Distinguished members of 
the committee, thank you.
    The Chairman. Get real close. Way up there. Way up there. 
Come on.
    Ambassador Boucher. I am about as close as I can without 
tasting it. Thank you. It is a great pleasure to be here today 
with you. And thank you for holding this hearing. I have a 
slightly longer version of my remarks, but let me make a few 
comments at the beginning, because my colleagues, I think, have 
already laid out the context and the importance of this 
program. In the strategy that the President laid out last month 
for Afghanistan and Pakistan, the approach that is taken was an 
integrated, comprehensive approach that involves stabilizing 
Pakistan and building up Afghanistan.
    Overall, our success in building institutions, 
strengthening governance, and ensuring economic growth is what 
will produce that kind of long-term stability. But we also all 
recognize that success in those areas hinges on helping 
Pakistan secure itself from the dangers of spreading Al Qaeda 
and Taliban insurgency. Our role in this effort is to support a 
Pakistani effort to defeat Al Qaeda and successfully shut down 
the safe havens in Pakistan.
    We have an active dialogue with Pakistan's civilian and 
military leaders. We hear from them consistently of their 
commitment to take on this threat, to take on the terrorist 
threat in Pakistan. But it is an ongoing effort, I think, to 
see how they can carry that out and to make sure that we are 
partners with them in carrying it out. And that is where 
programs like this become very important. Cooperation on the 
counterinsurgency has to proceed on two tracks, first by 
improving the ability of Pakistani security forces to defeat 
and dismantle terrorist groups, and second by extending the 
reach and the legitimacy of the Pakistani Government to all 
parts of their territory.
    So to accomplish these goals, we are looking for this new 
train and equip program, the Pakistan Counterinsurgency 
Capabilities Fund. And as my colleagues have expressed, this is 
designed to be a program that can deal with the urgent 
problems, that can deal with them quickly and flexibly, and 
give the combatant commander the ability to deal directly with 
these difficulties on both sides of the border. The State 
Department is fully supportive of this fund, fully supportive 
of the request for this authority to reside with the Pentagon 
and the Department of Defense in the 2009 supplemental.
    We think that this new authority will complement Foreign 
Military Financing, which remains the foundation of long term 
security assistance with Pakistan. We believe the new authority 
is necessary because of the unique and extraordinary nature of 
the situation we face at this moment in Pakistan. The fund 
would be dual key, meaning the Secretary of State would concur 
in its use. It would be time limited in order to address 
immediate needs. We don't think it sets a longer term precedent 
for the issues of authorities from one department to the other, 
which we know we are all discussing now.
    We want to do the other things that are necessary to make 
this program succeed in the counterinsurgency effort. We are 
proposing also to step up our assistance to strengthen police 
and governing institutions in the most vulnerable areas around 
Pakistan so that Pakistanis can also work on the hold part of a 
clear, hold, and build strategy. So security assistance, this 
kind of security assistance is only one component of a much 
larger strategy. And those efforts are designed towards 
creating the kind of modern, vibrant, and democratic state that 
Pakistanis desire and that the U.S. looks forward to working 
with as a partner in advancing stability in a key region of the 
world. So I will conclude with that and be glad to take 
questions.
    [The prepared statement of Ambassador Boucher can be found 
in the Appendix on page 42.]
    The Chairman. Mr. Ambassador, thank you very much. Rather 
than begin questions now, I think it is best that we proceed to 
the floor to vote, and then we will return forthwith and carry 
on. So we will be in recess.
    [Recess.]
    The Chairman. The hearing will resume and questions will 
begin. Let me ask a couple of opening questions.
    Madam Secretary, there is a growing sense, at least here in 
the House of Representatives, that the Coalition Support Fund 
construct is not serving the interests of either our country or 
Pakistan very well and the time is right to begin moving away 
from that mechanism as it is. Can you recommend any alternative 
constructs that can achieve the same goals and objectives and 
be equally or more effective?
    Secretary Flournoy. Sir, the Coalition Support Funds have 
been absolutely critical to providing reimbursement that 
enables the Pakistan military to maintain its operations tempo 
along the border with Afghanistan. Those operations are 
critical to helping secure the lines of communication going 
into Afghanistan, supplies supporting our troops, et cetera. 
They are also critical in other ways.
    So I think it is a very important mechanism. We have been 
sending teams over to work closely with the Pakistanis to make 
the process go better in terms of how the reimbursement gets 
made, while maintaining all of the necessary accountability 
measures to make sure that we in the executive branch and you 
here in Congress know how the money is being spent.
    The Chairman. Thank you.
    Secretary Boucher, excuse me, Ambassador Boucher, what do 
you want to be called?
    Ambassador Boucher. You can call me anything you want to, 
sir.
    The Chairman. All right, Mr. Ambassador, you mentioned that 
the State Department is supportive of the PCCF fund being used 
through Title 10 in the Department of Defense. Am I clear?
    Ambassador Boucher. Yes, sir.
    The Chairman. There is some debate here in Congress about 
whether this authority should be granted to the Department of 
Defense or the Department of State. Could you elaborate a bit 
on what is important by way of this authority to ensure that it 
can be used to make a difference on the ground in Pakistan 
quickly?
    Ambassador Boucher. The issue of which authority to use and 
for which stream of funds is, of course, something that is 
being discussed on the Hill and in the administration as well. 
The new administration said they want to sort out some of these 
authorities and funding streams. But when we looked at this 
immediate program, the decision was made to go for the route 
that we felt most suited the program in the present 
circumstance and most suited the need to get urgent approval 
for a flexible funding mechanism that would accomplish what 
this program could accomplish, meaning just get it up and 
running quickly, and so this was the preferred route was to do 
it under Defense Department authority. We thought that was the 
best way to go about it.
    The Chairman. In other words, the administration is in 
favor of it, and the State Department is in favor of this fund 
being used through Title 10 in the Department of Defense; is 
that correct?
    Ambassador Boucher. That is the way we made the request.
    The Chairman. Not the Department of State; is that correct?
    Ambassador Boucher. That is the way we made the request and 
we support that, sir.
    The Chairman. You are not for it to be in the Department of 
State, right?
    Ambassador Boucher. We are for it the way we asked for it, 
I guess.
    The Chairman. That is right. Defense Department, right?
    Ambassador Boucher. Yes, sir.
    The Chairman. Good. Thank you. Mr. McHugh.
    Mr. McHugh. Given the importance of the issue I am tempted 
to get a clarification of the Ambassador's statement, but I 
think it was pretty well established. I am going to make a 
comment about it, however. It may seem we are very closely 
focused on--this is a critical issue. And I appreciated the 
admiral's comments about the fact of the matter is--and I spoke 
to General Petraeus yesterday--our commanders, starting with 
General Petraeus, view the control and flexibilities embodied 
both in the Coalition Support Funds and the PCCF as absolutely 
essential and absolutely essential they be controlled through 
the Department of Defense, without State Department or any 
other department's filters.
    And I think the fact that President Obama, as has again 
been clarified--not clarified, but reaffirmed here today by our 
witnesses--has to his credit listened to the commanders on the 
ground and, along with the endorsement and support of 
Ambassador Patterson, has asked for these funds in this fashion 
is a message that cannot be overemphasized. I am deeply 
concerned about rumblings coming from the Appropriations 
Committee that regardless of what Congressman Berman, Chairman 
Berman's bill may or may not do, there are very significant 
voices on that committee working, as we speak, to put those 
kinds of State Department filtering conditions on our 
commanders.
    So just to kind of put the cherry on the sundae, if you 
will, I assume beyond Chairman Berman's bill, Madam Ambassador, 
you would also oppose any similar constraints imposed to the 
appropriations process? Simply put.
    Secretary Flournoy. I am sorry sir, you said Madam 
Ambassador, so I am not sure if it should be for me or him.
    Ambassador Boucher. I think we can answer in unison.
    Secretary Flournoy. We agree with the perspective.
    Mr. McHugh. You are an ambassador of goodwill, Madam 
Secretary, I apologize.
    Secretary Flournoy. We would--I would agree with your 
perspective sir.
    Mr. McHugh. Thank you. Let me ask another question. There 
has been discussion, media reports, Secretary Lindsey Graham--
oh, boy--Senator Lindsey Graham and I--I am just kicking people 
from one department to another here today. Senator Lindsey 
Graham and I have been trading phone calls. There has been 
discussion about advancing some significant moneys to the 
Pakistanis prior to the development and passage of the 
supplemental.
    Obviously both President Karzai and Zardari are going to be 
in town in the very near future, and this was looked at both as 
a confidence-building measure, but also something to free up 
funds more quickly to get supporting dollars into Pakistan and 
begin the work that I think the administration has done a 
pretty good job in detailing in their proposal. Does the 
administration have any position on that initiative at this 
time?
    Secretary Flournoy. I think this has been discussed, and I 
think there is a desire for getting this funding as quickly as 
possible. I think within the administration, I think the 
preference is probably to accelerate the entire supplemental, 
to have an earlier decision on that, and to keep these moneys 
as a coherent sort of package. But I think there is definitely 
a desire to have this as soon as possible. And I think it is 
open for discussion.
    I don't know if there is a different view on the State 
Department side.
    Ambassador Boucher. Sir, the view is essentially the same 
from the State Department. Our hope is the whole package can 
move expeditiously in the supplemental. The supplemental 
contained a number of elements on Pakistan economic assistance, 
security assistance and some operational things that we need to 
get on with right away. And I think our view is it is best if 
the whole package can move quickly.
    Mr. McHugh. I thank you both. Mr. Chairman, I will yield 
back.
    The Chairman. Thank you. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. I share the concerns 
of Governor McHugh--excuse me--of Representative McHugh. I 
think his term was ``unwelcome signals'' that we could send if 
we include language in the legislation that is not as helpful 
to the work that you all are trying to do.
    I wanted to ask, it seems like, Madam Secretary, 
Ambassador, that we also need to have some positive signals 
that we send to the Pakistani people. As I look ahead, I don't 
know how far off, 15 years, 20 years, 8 years, I can foresee a 
time when we will look at our relationship with Pakistan as 
being one of the really strong economic cultural relationships. 
I mean it has that kind of potential. I am always reassured 
when I pull out those pictures of those lawyers in coats and 
ties demonstrating for the rule of law in the streets of 
Pakistan. It seems to me that we have a lot of common shared 
values.
    And my question is, what other things can we be doing to 
send positive signals that this is more than just our desire to 
have a military ally at a time that we need military help?
    Ambassador Boucher. Sir, that is a very important point. I 
think part of it is the strategy that is the administration 
presented and that you see in the Kerry-Lugar bill and the 
House bill as well, that we know that we need to beef up, do 
more on the economic and institutional side so that we can help 
Pakistan modernize its institutions of government, modernize 
its education system, modernize its economy so that people see 
the benefits of this.
    There is a group I talked to not too long ago. One of the 
Pakistani colonels in the group said, you need to offer people 
something more than war. And we need to offer them peace. We 
need to offer them prosperity. And indeed if you look at the 
whole region strategically, the opportunities that a stable 
Pakistan that is free from terrorism opens up economically, in 
terms of relations with India, in terms of access rights to 
Central Asia, in terms of stability between the Middle East and 
the Far East, are enormous. And I think we do have that long-
term interest in Pakistan and in the people of Pakistan. We 
just need to make that part of our rhetoric, but also part of 
our programs.
    Dr. Snyder. As you look back in the relationship in the 
last few years, I had occasion to talk with some Pakistani 
friends a few weeks ago, and they were going back far enough, I 
didn't know what the details were, but it was like in the last 
year, two or three, and they expressed concerns that they felt 
like we had not followed through on some things that we had 
told them we would do as far as military equipment or those--
something like that.
    Do they have some merit to the fact that we didn't follow 
through like perhaps we had led them to think we would?
    Ambassador Boucher. I guess I would say we probably did 
follow through, but we didn't necessarily follow through as 
fast as they wanted. I look at the challenges that they face, 
and especially that the new democratic government has faced 
since last March when they came into place. They are dealing 
with an economic crisis, a political crisis of stabilizing 
democracy, and a huge security crisis all at the same time. 
Every single one of these needs is urgent.
    And we have tried to come through for them in a lot of 
ways, but some of these things take time to fund and procure 
and deliver. And so I think they are right in saying, hey, we 
need it now. And that is one reason why we are coming to you 
with this program because this is a way to get now to the 
people who are out there fighting the insurgency. Pakistan's 
military just this week is pushing back against these 
encroachments.
    Dr. Snyder. I would encourage them if they think that we 
have made some promises--like our constituents, let us know if 
they think there is a problem.
    The last question is, it seems like if I were a Pakistani 
military leader, it would be very difficult for me to figure 
out how to be as involved as perhaps we would like to be in the 
area along the Afghanistan border, given their great concern 
with the potential tension with India. Is there a way that the 
Pakistani-Indian relationships can improve, apart from what is 
going on in this war against terrorism, or do they go hand in 
hand? I address that to you, either one of you.
    Ambassador Boucher. I think there are a lot of ways that 
the Pakistani-India relationship can improve. And, one, we have 
seen a lot of progress over the last few years, Pakistanis and 
Indians both pushing forward new ideas in trying to solve some 
of the issues. The issue of terrorism, though, is central to 
this.
    The Mumbai bombings carried out by a group that was based 
in Pakistan really disrupted the progress that was going on. 
And one of the best ways to improve Pakistan's relations with 
India is to see Pakistan carry through on what they have 
started, and that is to prosecute and disband, eliminate the 
group that was responsible for the Mumbai bombings.
    India is going through an election right now. But I hope 
that when the new government comes in, that they will see the 
progress on terrorism and they will be able to work with 
Pakistan to try and reestablish some of that broader progress. 
Reduction of tensions, improvement of economic ties, people-to-
people ties, all that I think would benefit not only stability 
in the region but also the fight against terrorism in the 
region.
    Dr. Snyder. Thank you.
    The Chairman. Thank you.
    Before I ask Mr. Coffman, let me ask the fact that Taliban 
forces have seized an area. I think some 60 miles from 
Islamabad, is that of great concern to you, Madam Secretary?
    Secretary Flournoy. It is of concern and it is an example 
of some of these militant groups moving out of the northwest 
territories and the Federally Administered Tribal Areas (FATA) 
and into what I refer to as the Pakistani heartland. I think 
the attacks against the cricketers, the attacks on Lahore, we 
have seen a number of these examples, are part of what is 
contributing to a shift in the level of concern and the 
determination to do something about this on the part of both 
Pakistan's leaders and ordinary Pakistani citizens.
    The Chairman. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. My first question is, 
I have seen analyses that show that 80 percent of the Pakistani 
military is focused on its border with India, in the Kashmir 
area, that that is their orientation.
    One question is, has that changed? And the second is, what 
initiatives does the United States have to defuse the situation 
between India and Pakistan over Kashmir so that we can get them 
to focus in on the Taliban?
    Secretary Flournoy. Sir, if you don't mind, I will defer 
the military lay-down question to my colleague and just note 
that I think on the India-Pakistan question, I think part of 
the strategy that we laid out is very much of an intensive 
diplomatic engagement not only with Afghanistan-Pakistan, but 
also all the countries in the region, to try to reduce tensions 
where they exist, to enable some shifts in resources to deal 
with this problem of extremism on the border. But I will let my 
colleagues comment on the details.
    Admiral Winnefeld. First, to comment on the exact number of 
troops and whether they are shifting or not inside Pakistan, in 
this unclassified forum, would probably be unwise. But I will 
say that the Pakistanis do have around 100,000 troops in the 
western area. And it is my sense from talking with my boss, who 
does an awful lot of military diplomacy with his counterparts 
in the region, that there is a desire on the part of Pakistan 
to move to the west. And it is just about building trust, which 
is clearly a public diplomacy and a military diplomacy task 
that we are taking on and we have been taking on, and we 
believe we are gradually building that trust.
    It is sort of two steps forward, one step back sometimes. 
And there are setbacks when things like Mumbai occur, which 
sort of tend to make people fix in place or even add troops and 
other pieces of military equipment in the areas we would rather 
not see them.
    But our sense is the Pakistani military ``gets it,'' that 
they understand where the real threat to their nation's 
stability exists, but they continue to be worried about their 
perennial concern, which is India. Yes, sir.
    Mr. Coffman. We have had testimony before this committee 
that seems to suggest that funding institutions, such as the 
police and the Frontier Corps, are more effective than funding 
the regular Army in counterinsurgency. And in this funding, do 
we have the ability to be specific as to what entities we fund, 
or are we simply giving it to the Pakistani Government?
    Admiral Winnefeld. That is one of the great things about 
this authority, is that it really leaves the determination in 
our hands and General Petraeus' hands, with Ambassador 
Patterson clearly having a very, very important input, along 
with the Office of the Defense Representative to Pakistan 
(ODRP) commander, Admiral LeFever, as to us funneling this 
money specifically towards counterinsurgency capability, with 
specific equipment, that we determine what will be purchased 
for the Pakistanis and also the training side as well. Yes, 
sir.
    Secretary Flournoy. If I could just add, PCCF as a Title 10 
authority, is available to support the Frontier Corps, the 
special operations forces, and we would propose also expanding 
to the army forces that are in that border region. But critical 
to a broader counterinsurgency strategy is also building police 
capacity, but that would be done under separate authorities and 
funding streams that are in the State Department's purview 
through their International Narcotics and Law Enforcement (INL) 
program.
    Ambassador Boucher. In the supplemental request that we 
have presented, there is another $65 million for the police and 
Frontier Corps, about $40 million specifically for the police. 
And that would be added to some other programs that we have 
this year, and we hope next year, to really focus on building a 
stronger police capability in that area because what we are--
part of the counterinsurgency is to allow the government to 
maintain control in areas that the military has been able to 
clear out, and that is a very important priority for us and, I 
have to say, for the Pakistanis as well.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    The Chairman. Mr. Smith, please.
    Mr. Smith. Thank you, Mr. Chairman. Following up a little 
bit on the counterinsurgency piece and our strategy there, 
first of all, tell us a little bit about how we get the 
Pakistani military and police to the point where we feel 
confident in their ability to engage in counterinsurgency. How 
far off are we? What do you see as the main challenges there? 
Because it certainly seems critical. It is the cornerstone of 
counterinsurgency, by, through, and with the local population 
and the local law enforcement, as opposed to our hand. And that 
is particularly true in Pakistan, given how the Pakistani 
people feel about us.
    What is the path forward in terms of getting them to the 
level of capability they need to be effective everywhere, 
including the FATA, throughout the whole region?
    Secretary Flournoy. Let me start and the admiral may want 
to add. I think there are many dimensions to this. The first is 
equipment. They have focused most of their equipment 
acquisitions on their deterrent capacity vis-a-vis other 
neighbors, particularly India. They have not focused their 
equipping efforts on counterinsurgency. And there are some 
different kinds of capabilities that they need there.
    But, as important, is training and you know as we have 
learned in Iraq and Afghanistan, these operations require 
different mind-sets, certainly different doctrine, different 
skill sets sometimes, different kinds of leadership ability. So 
I think the training and education piece is just as important 
as the equipment piece, and giving them the ability to do 
population-focused military operations where securing the 
population is really at the heart of what they do.
    Mr. Smith. On that point, sorry to interrupt, but how 
confident are we in our intelligence or in Pakistani 
intelligence on getting to know those critical populations, to 
know who the community leaders are, who the tribal leaders are, 
who we can work with? Because certainly that was the key in 
Iraq, was finding members of the local population who were 
willing to turn on Al Qaeda and the Taliban.
    I am not as confident that we have that same level of 
knowledge, or even necessarily that we are working towards that 
level of knowledge in the critical areas in the lawless regions 
of Pakistan. What is our plan for dealing with that?
    Secretary Flournoy. I think historically--I don't think 
that there has been a deep understanding of the sort of 
cultural demographics, if you will, of that area. I think that 
certainly as with the Frontier Corps there with Pakistan, the 
government moving more, starting to focus more on that region, 
move people and resources into that region, that is starting to 
improve. They are gaining knowledge as they go and so forth. 
But I think that is an area where improvement could be made.
    Mr. Smith. And is that an area where within DOD or within 
our Intel Community we are planning to ramp up our efforts to 
gather information on our side, either supply----
    Secretary Flournoy. Sir, sir, I can't really comment on the 
Intel side of it because it is sort of out of my purview.
    Mr. Smith. We had testimony last week on this subject with 
some outside experts, including Mr. Kilcullen who is very much 
an expert on these issues. And he basically, he made the 
statement that the Predator strikes were counterproductive; 
that basically you are going for counterinsurgency, building 
support with the population.
    I don't think I agree with that, but certainly there is a 
point at which if we are doing counterinsurgency correctly, if 
we are building sufficient support within the local population 
to confront the problem that way, they do become 
counterproductive.
    Is that something that you have contemplated in terms of 
our strategy there, our unilateral actions, and ramping that 
down to build up population support and to build up the 
Frontier Corps's strength in that area?
    Secretary Flournoy. Sir, I don't mean to be unresponsive, 
but I don't feel--I don't think it is a good thing for me to 
comment on in an open session. But we would be happy to talk to 
you in a closed session on that.
    Mr. Smith. Fair enough. Last question has to do something 
with what Mr. Snyder was raising, and that is sort of the trust 
gap between Pakistan and the United States. And I guess this 
would be for the Ambassador.
    What are the most important things we can do to try to 
build up the Pakistani trust? There has been excessive focus on 
our side, with our lack of trust in them, which of course only 
exacerbates the other problem. But in terms of exchanges, in 
terms of different things our government could do to try and 
build and strengthen our relationship with Pakistan, are there 
suggestions that you would have for us?
    Ambassador Boucher. I guess I would say that the most 
important thing is to come through on a broad program that 
actually does improve education and help them economically and 
help them meet their energy needs and help them build 
institutions of government that they need and help the police 
provide security for people. If we can help the Pakistani 
Government deliver what its people want, then I think that 
builds the level of public as well as governmental trust 
between the two countries. And so that is one of the thrusts of 
the program.
    Mr. Smith. Thank you, Mr. Chairman. Thank you. Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman. And thank all of 
you. I know that it is always difficult to speak to kind of 
theoretical questions. But related to any possibility that 
there being a breakdown in Pakistan's military hierarchy, 
whether it is Taliban or whoever it might be, that could either 
gain through a loyalty breach or through a force of arms, 
control of some or all of Pakistan's military weapons, 
especially their nuclear weapons. And I am not sure what you 
can say in this venue.
    But, Admiral, what do you think should be our greatest 
concern there, our greatest focus?
    Admiral Winnefeld. First of all, I would tell you that we 
believe that the Pakistani military is a very stable 
organization that is well led. General Kiyani has a very good 
relationship with Admiral Mullen, and vice versa, and you know 
that he has been over there many times over the last year. I 
have lost count; I think it is up to nine. And he has gotten, 
he has built a very deep sense for this organization and an 
affinity for it as well.
    And I think he would be the first to say that he is not 
concerned about the Pakistani military breaking down per se in 
the face of a Taliban influx or an assault upon the military 
organization itself.
    So I think that the thing we need to make sure that we 
continue to do is to build the trust that we do with the 
Pakistani military. And we do that in many ways: through the 
International Military Education and Training (IMET) program, 
which is absolutely critical--as you know, we had a 12-year gap 
there and we are trying to recover from that--by coming through 
on what we agreed to deliver to them, by also holding them 
accountable in private, by continuing our training programs 
that we do for them. And it is really across a broad spectrum 
of building trust and buttressing their military to (a) be a 
good strong COIN force and (b), be a very responsible actor 
inside Pakistan. Those are the things we need to concentrate 
the most, I think.
    Mr. Franks. Thank you, sir. And thank you for your service 
to this country, to say the least.
    Ms. Flournoy, I guess I will put the question to you in a 
little different way, because obviously you have even the same 
goal that the admiral does, but just a different mechanism.
    Secretary Clinton stated this week, and I am quoting, she 
said, one of our concerns which we have raised with the 
Pakistani Government and military is that if the worst, the 
unthinkable were to happen and this advancing Taliban 
encouraged and supported by Al Qaeda and other extremists were 
to essentially topple the government for failure to beat them 
back, then we would have to--they would have the keys to the 
nuclear arsenal of Pakistan, unquote.
    And then she goes on to say, we can't even contemplate 
that, we cannot let this go on any further, which is why we are 
pushing so hard for the Pakistanis to come together around the 
strategy to take their country back. And unquote here again.
    What is the Department, from your perspective, doing about 
the, quote, unthinkable, and specifically understanding and 
controlling Pakistan's nuclear stockpile? And what are we doing 
to contemplate and come up with a strategy to ensure nuclear 
weapons don't fall into the hands of Al Qaeda?
    It is a little twist on the question I asked the admiral 
but, of course, some of the diplomatic approaches are obviously 
different from the military. What are we doing there to really 
make sure that we are protecting this country, and essentially 
the world, from those weapons falling into the hands of the bad 
guys?
    Secretary Flournoy. First of all, I would say I think we 
have to be concerned anywhere where there is a potential for 
instability in a nuclear armed state, be it Pakistan or 
anywhere else. I think the first thing we are doing is, as 
Admiral Winnefeld described, is we are raising the issue, we 
are talking about it, we are emphasizing the importance of 
Pakistan's responsibility for the security of its weapons. And 
as the admiral said, I think they are focused on this and they 
take it very seriously and they have actually invested a 
substantial amount of resources and time and effort in recent 
years to improve the security of their arsenal.
    So I think that it is something that we focus attention on, 
on our side, in our thinking about contingencies and such. But 
it is also something that we consistently raise in dialogue 
with them, and we try to ensure that we are there to work with 
them to make sure that that focus remains. But I think that it 
is definitely in everybody's mind and there is no lack of 
attention being paid to it.
    Mr. Franks. Well, thank you.
    The Chairman. Thank you. Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman. For some time now, 
we have been underfunding State's activities generally, 
worldwide, that are important to us as far as maintaining 
relationships, developing intelligent sources, et cetera, is 
concerned.
    Frankly, funding to the State Department is an easy target 
politically. It is easy to cut that stuff and say that we need 
to be spending money here at home as opposed to abroad for any 
number of different reasons.
    I have suggested for some time that perhaps we think about 
funneling money through DOD to State Department-type activities 
as perhaps a mechanism to have a sustained, politically 
sustainable over the long haul way of addressing long-term 
security needs that can only be met by developing the right 
kind of partnerships, the right kind of relationships 
worldwide.
    We can't do this ourselves. We have got to have our 
partners like the Pakistanis furthering our strategic interests 
and securing nukes basically in this instance and pursuing Al 
Qaeda generally. And I kind of see it heading in that direction 
and, in that sense, positive.
    I am a little worried, though, that you seem to be pretty 
adamantly opposed to H.R. 1886 because of rigid conditionality, 
I think is the term that one of you used in testimony. What are 
the conditions in H.R. 1886 that have been proposed that would 
somehow constrain your ability to act in a way that you find 
unacceptable?
    Obviously, everybody would like to just have a free hand, 
you know. Congress, give us the money, we will do the right 
thing with that money, trust us. Congress has the obligation, 
though, to make sure that money is to be spent appropriately, 
so some conditions were apparently proposed that you all don't 
find acceptable. And I am curious to know what those conditions 
would be.
    Secretary Flournoy. I think that our concern was that the 
wording of some of the Presidential certification requirements 
was--to our reading, it seemed very absolute and inflexible. So 
that if we are making progress but we weren't at the end state 
yet, we are still not at the end state, so no assistance. We 
are worried about the way things were worded.
    Mr. Marshall. If I could interrupt. Have you already, in 
writing, let the bill's authors know what your concerns are? 
Does the committee to which it has been assigned know what your 
concerns are?
    Secretary Flournoy. Secretary Gates and Chairman Mullen 
have written a joint letter, actually, to Chairman Skelton and 
to Mr. McHugh, expressing our concerns about the bill; 
applauding the bill for its desired increased assistance to 
Pakistan, and to do so in a comprehensive and integrated way, 
but voicing concern about some of the specifically inflexible 
language on conditionality and so forth. So we are supportive 
of the spirit but have concerns about how it is actually 
operationalized in the bill.
    Mr. Marshall. I see it is in writing, so I don't need to 
further pursue that line of questioning. I will just read what 
you have written. I appreciate that.
    We are going about this business, once again, taking the 
lead. And it may be that we are the sole actor that is doing 
this, and as a consequence it will be American tax dollars and 
American personnel executing this.
    Who are we teaming up with? Obviously, Pakistan's stability 
is of interest to North Atlantic Treaty Organization (NATO) and 
the entire world, really. And Nunn-Lugar proposes 1.5 billion 
of additional dollars for the next 5 years. It just seems to me 
we ought to have a lot of international partners working with 
us.
    Secretary Flournoy. Sir, we do. And you may want to 
elaborate on this, Ambassador. But at our urging, our allies, 
the Japanese actually just hosted a donors conference for 
Pakistan in Tokyo that raised--I think it was $5.6 billion in 
international pledges. So we are not alone in this.
    Coming out of the Afghanistan-Pakistan strategy review, we 
really sought to rally others around our desire to strengthen 
the Pakistani Government and to offer various assistance 
efforts. I don't know if you want to elaborate on that.
    Ambassador Boucher. Sir, I think there is a lot of 
international concern about Pakistan. And the conference in 
Tokyo did overpledge the amount that was required. The 
International Monetary Fund (IMF) identified a shortfall of 
about $4 billion that was going to be needed for balance of 
payments, budgetary and program support for Pakistan, to get 
them through the economic crisis. And in Tokyo we came in for 
$1 billion, the Japanese came in for $1 billion; the Saudis 
were in for $700 million; the rest of the Gulf Emirates was 
300-plus. So $1 billion from the Gulf. Europeans were 
substantial.
    Some of the other countries that didn't pledge anything 
new, like China, are already fairly substantial supporters to 
the Pakistanis. So I think there was very broad international 
support, final number. I think the way the IMF counted it was 
$5\1/4\ billion against an original target of $4 billion. So I 
think there is substantial support as well as international 
concern, and the two go together.
    Mr. Marshall. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. Thank you, members of 
the panel, for joining us today. I wanted to follow up a little 
bit on the letter that was sent to Admiral Mullen and Secretary 
Gates concerning the whole Pakistani issue. But I want to focus 
in on the international military education and training aspect 
of that. And I also want to include in that a conversation I 
recently had with General Zinni, who was former CENTCOM 
commander, and looking at the utility of that particular 
program. And it was pointed out by both the Secretary and 
Admiral Mullen that has been critical in the past and they see 
it as being important into the future.
    I wanted to get your viewpoints about will these programs 
be increased? Will they be enhanced? How will we apply these to 
try to make sure that we have that sort of training, 
integration of thought process with U.S. forces and Pakistani 
forces? And what we are seeing today are officers at the junior 
grade that haven't been through those training programs. And we 
are seeing now a difference between the senior officer corps 
and the junior officer corps. And I am wondering what your 
thoughts are on where this is going. Where do we look to 
enhance that, and what utility will that have on our success 
there in Pakistan?
    Admiral Winnefeld. Yes, sir. Without using up too much of 
your time with specifics, I will tell you that Admiral Mullen 
is an extremely strong supporter of the IMF program. He came 
back from one of his trips one time, really energizing the 
staff to pour more attention and time into buffing that program 
up essentially so that it would accomplish more of the things 
that you are describing.
    I think we have 37, if I am not mistaken, Pakistani IMET 
students in the United States right now. That is sort of a 
long-term program in the sense they come over for an extended 
period of time. And in order to get more leverage and more 
exposure to the exact group of Pakistani officers you are 
speaking about, we would like to get some of them and some of 
their noncommissioned officers over for shorter periods to 
expose them. And we believe we are going to start seeing some 
success in doing that. And there are other programs that we are 
trying to ramp up in order to get that done.
    So I think the short answer is we understand this. We 
really want to get at that--particularly that tranche of 
officers that did not have the exposure. And it is a very 
important program for us.
    Secretary Flournoy. If I could just clarify, the PCCF 
authority proposal does not at all affect IMET. In fact, we are 
increasing our request for IMET. PCCF will allow more 
operational types of training but it is a complementary effort, 
not a replacement to IMET.
    Mr. Wittman. Thank you. Secretary Flournoy, a question 
about the integration of different efforts there in Pakistan. 
We know there has been a lot of talk, and we had a panel that 
testified before us last week suggesting that there has been 
maybe an overreliance on the military strength through the U.S. 
intervention there in the region, and that maybe we ought to 
look at some additional efforts along the development side or 
the implementation of what they call soft power.
    I just wanted to get your thoughts about how do you 
integrate both of those efforts to be successful in those 
regions, to make sure that we not only provide security but we 
look at security in sustainable ways as it relates to the other 
aspects of Pakistan and its economy?
    Secretary Flournoy. Well, when we came up with a budget 
proposal that is in the 2009 supplemental, and then also what 
is in 2010, we very much came at it from a holistic 
perspective. And so you see the bulk of the assistance on the 
civilian side to do things like rule of law assistance, 
economic development assistance, police, et cetera. The 
military piece is a portion of that. And it comes in several 
flavors.
    But I think we do have a holistic perspective. We in 
Washington have worked the interagency process very hard to get 
coherence. And then in the person of--combination of Ambassador 
Holbrooke, who will be looking at a regional perspective, and 
Ambassador Patterson and our folks on the ground, they will be 
very much looking to ensure those things work together.
    Secretary Flournoy. I can tell you that the military piece 
is very much designed to help create the security environment 
in which the governance and development assistance can be more 
effective.
    Mr. Wittman. Thank you, Mr. Chairman. I will yield the 
balance of my time.
    The Chairman. Mr. Taylor, please.
    Mr. Taylor. Madam Secretary, thank you very much for being 
with us, Admiral, Ambassador. I am just curious, I do come from 
a part of the world where $400 million is still a lot of money. 
What is it you think we accomplish with that 400 million? What 
is your level of confidence at the end of the day it has made a 
difference, that anything has changed favorably our way? Or is 
this just a very small down payment on something we are going 
to be asked to provide a heck of a lot of money for in the very 
near future?
    Secretary Flournoy. Sir, I think that as the Pakistan 
leadership, both civilian and military, become more focused on 
this threat and more willing to deal with it, I think our 
ability to help them develop the capabilities to be effective 
is going to be that much more crucial. And so what we are 
talking about is, in the PCCF, is moneys that can help train 
and equip the Frontier Corps, the Special Operations forces, 
but now expand also to the Army forces in the area. And that 
can give them very specific capabilities, equipment and 
training that they lack that are essential to effective 
counterinsurgency.
    So I think this is something that we have been working 
piecemeal by putting together a patchwork of authorities and 
trying to take little bites out of the apple. What the PCCF 
will allow us to do is take much more concerted and coherent 
approach to getting further down this road much faster.
    Ambassador Boucher. Sir, if I could just add to that, 
because I have gone out to the border areas a number of times, 
and I remember a trip I was down south in the area across from 
Helmand, where the U.S. forces are going in, working with some 
people from the Frontier Corps, going out to visit forts that 
we had actually built along various infiltration routes. And 
talking to the commander of one of these forts, I said do you 
have night vision goggles? Do you have body armor for your 
troops? And he said we have a very small amount, and we switch 
it between different places, different forts on different 
nights depending upon where we think the smugglers or the 
infiltration might occur. And I think what this program is 
designed to do is to sort of make sure they can all have their 
body armor, that they can all get out there and do what has to 
be done in a more coherent and concerted way. So it is really 
trying to do this in a systematic way, and not just as the 
Under Secretary said, sort of the hodgepodge that we have done 
before.
    Mr. Taylor. And again, I will presume you have spent years 
in that area and I haven't stepped foot in Pakistan. But from 
everything I read, it seems to me that Pakistani Government 
considers India their primary threat, Taliban not to be a 
threat. So that runs counterproductive to what you just said. 
Night vision goggles to protect themselves from what, the 
people they don't consider a threat?
    Ambassador Boucher. These are people that are on the 
infiltration routes in and out of Afghanistan.
    Mr. Taylor. Right, but they don't consider that 
infiltration route to be a problem.
    Ambassador Boucher. No, they do. It is just they are not 
equipped to deal with the problem. And I think what this 
program tries to do is equip them to deal with it.
    Secretary Flournoy. Sir, I think what you describe is 
historically accurate. I think there really is a shift taking 
place as these attacks come into the heartland of Pakistan, and 
as, you know, they threaten the Punjabi territory and so forth. 
I think it is also very important to see this in the context of 
the fact that, you know, this is an integrated theater, this 
border region. And we have tens of thousands of troops on the 
Afghan side. Part of preventing attacks coming from Pakistan 
across that border is helping the Pakistanis to be more 
effective in securing the border, denying that area as a safe 
haven, establishing security for the population in those areas, 
and securing the lines of communication. That has a direct 
impact on our forces in Afghanistan. And now that there is 
greater willingness on the Pakistani side to address this, I 
think we have to support them in being more effective because 
it will affect us in very concrete ways.
    Mr. Taylor. In the short time I have remaining, has anyone 
in the Pakistani Government actually asked for this money, and 
if so, whom?
    Admiral Winnefeld. To our knowledge, they are not asking 
for the money, they are asking for us to help them with their 
capability.
    Mr. Taylor. Who? What is the name, what is the title?
    Admiral Winnefeld. General Petraeus is asking for----
    Mr. Taylor. No, no, in the Pakistani Government, who in the 
Pakistani Government, the name and the title, is asking for 
this?
    Admiral Winnefeld. General Kiyani. General Kiyani, sir, is 
asking for us to dramatically enhance his Armed Forces, the 
Frontier Corps, the Special Forces that he has, and in fact, 
the Eleventh Corps, their ability to do counterinsurgency. He 
has lost 1,400 killed in action along the border region. He has 
lost a lot more people out west than he has against India, and 
he knows it. He realizes, and the entire government is 
beginning to realize more and more that this is the real 
immediate threat. At the same time, they are still worried 
about India. And we would love for them to worry less about 
India and more about the west, but they are definitely raising 
their awareness of and their concern about what is happening in 
the west.
    Mr. Taylor. Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you all for 
being here today. I agree with Dr. Snyder. I am hopeful for 
Pakistan. I visited the country a number of times. And the 
people I have met there are very dynamic. There are 30 million, 
possibly 40 million middle class people, significant high level 
of education. I have had the opportunity to meet with 
parliamentarians on my visits there. And also we have a number 
of members of the parliament from Islamabad come and visit 
here. Every time I am really impressed at the dedication of the 
people that I have had the opportunity to meet. I have also had 
the opportunity, with the earthquake relief in 2005, to visit 
with U.S. Marines who were working with the Pakistani military. 
And the military impressed me as very professional, very well 
organized.
    And so I am just again hopeful, but I have also seen 
tragedy. I had the opportunity, sadly, to have breakfast at the 
home with Benazir Bhutto a month and a day prior to her murder. 
And so I want the best for that country. And Admiral Winnefeld, 
last week when we had a hearing, there was concern expressed 
that Pakistan is actually on a trajectory toward becoming a 
failed state. In general, we have been discussing this the 
whole time, but what specifically can we do to develop a 
strategic partnership with that country to succeed? Actually, 
any of you if you would like to.
    Secretary Flournoy. I think those words are very important, 
strategic partnership. I think one of the things we have got to 
do is move out of a very transactional relationship to 
investment in a strategic partner and a long-term program to 
invest in strengthening Pakistan's political and social 
institutions, strengthening their military, and their ability 
to provide security within their own borders, strengthening 
their economy and so forth. The stability of that country is so 
important to our interests and to the region. I think that we 
have to engage as a priority at all levels, using all 
instruments, from diplomacy to assistance to military 
engagement and so forth. And I think, again, this is one of the 
primary insights that has come out of the strategy. And I think 
we are trying to move out in that direction. But we do need 
help. We do need the tools to be effective in doing that.
    Mr. Wilson. And I have served twice as the co-chair of the 
India caucus. And I have made the points to our friends of 
India and our ally of India that the country that would benefit 
most from a stable Pakistan is India. And Secretary Boucher, 
you have indicated that there have been steps towards a better 
relationship between the two countries. What can we do to 
promote an improvement in relations between two countries that 
it would be in their mutual interest that each be successful?
    Ambassador Boucher. I think U.S. encouragement helps them 
achieve the kind of progress that they have made in the past. 
There are more concrete things that we do. The Federal Bureau 
of Investigation (FBI) has been involved in the follow-up to 
the Mumbai bombings on both the Indian side and the Pakistani 
side to try to get the facts out, try to get the prosecutions 
under way, try to help them deal with this problem, eliminate 
the further threat of terrorists from these people and move on. 
And then I think, frankly, the more we do to help Pakistan deal 
with the terrorist problem, the more we open up opportunities 
for India and Pakistan to cooperate.
    Mr. Wilson. What is the status of trade relationship 
between the two countries?
    Ambassador Boucher. It is open for a slightly increasing 
list of goods. There is a lot of potential there should we say. 
There is probably a lot of trade that goes in and out of the 
gulf. But there is, I think, very identifiable trade 
opportunities that both would like to take advantage of.
    Mr. Wilson. And what is the status of assisting in any way 
education? Are we helping in any way the educational--the 
schools in Pakistan?
    Ambassador Boucher. We are. It has been a priority for 
previous programs. We have done a lot of it for many years 
through budget support. Last year we moved this into specific 
projects that we were funding. But I think in terms of the new 
budgets, the new amounts that are being requested, that would 
be a very high priority.
    Mr. Wilson. And in the past, that has been a real problem 
of the lack of education and extremists taking over the system. 
So thank you all for your service.
    Ambassador Boucher. Exactly. If I could just say the goal 
is to create a good public education sister testimony so it 
draws kids out of madrassas and into the modern sector of life 
and society and the economy.
    Mr. Wilson. Thank you.
    The Chairman. Before I call on Mr. Kissell, let me ask is 
it not true that the key to success in Afghanistan is full 
cooperation with Pakistan? Or I should say by Pakistan?
    Secretary Flournoy. I do think that cooperation with 
Pakistan is critical to our success in Afghanistan. And I think 
that enabling them to help apply pressure on their side of the 
border in dealing with this extremist threat is absolutely 
crucial to success over the long haul.
    The Chairman. We don't want to even speak of Pakistan 
becoming a failed state, but what if they become as fully 
ineffective in helping us with the Al Qaeda and the Taliban and 
the criminal element? What about our conflict in Afghanistan 
under those circumstances?
    Secretary Flournoy. I think the more that either side of 
the border becomes a safe haven for Al Qaeda and other 
extremists, the more difficult it is for us--the more difficult 
it will be for us to achieve stability and security in our 
objectives on either side of the border.
    The Chairman. At what point do we say since you are not 
helping us as much as you can, we will not allow a safe haven 
to exist?
    Secretary Flournoy. Sir, I don't know how to answer that 
question. I think it is----
    The Chairman. But it is a real question.
    Secretary Flournoy. It is a real question. And I think our 
job is to try to avoid getting to that point. We have 
opportunities I think to make that a more remote possibility by 
investing in the capacity and capability of Pakistan to avoid 
the kind of outcome that you are describing. And I think that 
is the primary course of action that we should be taking.
    The Chairman. Bottom line, doesn't it amount to the will of 
the Pakistani Government to get their house in order?
    Secretary Flournoy. I think there is a will component and a 
capability component. And I think the more effective we help 
them to be in addressing the insurgency when they choose to 
address it, which they are doing right now, the more that will 
build political will to keep on down that path.
    The Chairman. Thank you. Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman. And thank you all for 
being here today. Madam Secretary and Mr. Ambassador, recently 
in Afghanistan, I had a chance to visit. And numbers given to 
us for polling numbers independent of the government or 
military, this came from evidently media, listed support for 
the Taliban in Afghanistan being below 10 percent, single digit 
numbers. How strong is the support for the Taliban not in 
Pakistan in general, but in the region where they have recently 
been so active? How strong is the local support for these 
people? And also I saw a news account this weekend that 
indicated that parts of the Pakistan Government said here, you 
can have this, just leave us alone over here. How true was that 
and how--what does that mean to us?
    Ambassador Boucher. I think probably support for Taliban 
groups in this area, in the border areas of Pakistan is 
probably higher than it might be in Afghanistan. They are 
rooted in tribes, culture, and history, in traditional 
opposition to governing authority. At the same time, when you 
talk to people up there, you hear they want schools for their 
kids, they want hospitals, they want roads, they want job 
opportunities. And I think if the government can deliver those, 
people want to side with the government.
    Now, it has been dangerous to do that. There have been 
hundreds of tribal leaders who have stood up over the last year 
or two in various meetings and supported the government, trying 
to get rid of the Taliban, and they have been killed. The 
Taliban have killed at least 200, I think last year, tribal 
leaders. So it is very dangerous to stand up and side with the 
government. But there are substantial portions of the 
population that want to do that. The idea that maybe, well, you 
know, if we just left them alone, they could stay up there and 
not cause us any trouble, that kind of goes back on and off to 
British days. And it has never worked.
    It didn't work for the British, hasn't worked for this 
government. And particularly right now when you see these 
groups trying to push into other areas and take over other 
parts of the country, the government I think is feeling that 
they really do have to assert governmental authority. And that 
is what this is all about in many ways.
    Mr. Kissell. Admiral, we had a group last week and I asked 
this question to them, as we are successful in Afghanistan does 
that help or hurt Pakistan in terms of its ability to fight the 
Taliban? Would it mean that the Taliban would concentrate more 
there? Just what would it mean?
    Admiral Winnefeld. That is a very difficult--we are looking 
through a glass darkly when we are trying to foresee the answer 
to that. But I think we can safely say that as we are 
successful in Afghanistan, it is possible that some of the 
Taliban will be driven back over the border, which the 
Pakistanis are very concerned about.
    I would add, as a side note, that having authority like 
PCCF to enable us in an agile way, enable General Petraeus to 
help enable the Frontier Corps, for example, and we are going 
to move that effort into the south eventually where we are 
going to try to strengthen the capability of the Frontier Corps 
in the south, and the Ambassador alluded earlier to how really 
poor they are in just the basic needs, just being able to move 
from point A to point B somehow other than being on foot down 
there is very difficult for them.
    So strengthening them down there will help Pakistan, and it 
will help sort of sandwich the Taliban who might be tempted to 
leave Afghanistan if they are losing in the south, as we are 
confident that they will be this summer and this fall once we 
get additional forces in place. On the other hand, anywhere we 
can beat the Taliban we are going to beat them. And we believe 
that we wouldn't want to let up at all in southern Afghanistan 
in order to prevent, you know, them from going back across the 
border. That is why we want to work closely with Pakistan, we 
want to use authorities like PCCF to strengthen them and get 
this job done.
    Mr. Kissell. Thank you, sir. Thank you, Mr. Chairman.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman and members of the 
panel. The first question kind of ties into what Chairman 
Skelton said in the very beginning. He just mentioned that the 
Taliban are 60 miles outside of the Pakistani capital. And I 
have heard the words trust, diplomacy, good will, strategic 
partnership, but I haven't heard much, maybe the Admiral can 
answer this, about closing with and destroying the enemy 
through firing and close combat as the Marines do, which is 
what they need right now. The $400 million isn't going to do 
anything for that, nothing, about what is going on now. So what 
is going on now? What are we doing right now to help them? If 
you can talk about it in this venue.
    Admiral Winnefeld. Yeah, I think in the most unclassified 
manner of speaking, the Pakistanis, as you can read in the 
press, are moving into that area in an attempt to eliminate the 
Taliban presence, the extremist presence in Buner. That is 
going to be a difficult job for them, partly because we believe 
that it is possible the insurgents are trying to entrench 
themselves in that area and they are going to be hard to root 
out like insurgents are anywhere, as you well know. And what we 
are doing is listening to the Pakistanis. If they are going to 
ask for a request for support we are going to listen very 
carefully. And again, having authority like PCCF would help us 
respond to requests like that very quickly. If they were to 
request--if there were an unanticipated need that were to 
emerge, whether it be training----
    Mr. Hunter. Are you saying you can't do that now, you can't 
fulfill those needs without the PCCF right now?
    Admiral Winnefeld. We are less able do it now than we can 
if we have the PCCF, that is correct.
    Mr. Hunter. Not to belabor the PCCF, but we are talking 
about that a lot, General Petraeus said that the PCCF, in a 
letter that I have here, is integral to the success of Enduring 
Freedom because it enables the commanders on the ground to do 
what they need to do when they need to do it. And this is for 
all of you. Do you think that if the State Department had 
control of this that it would be inserting the State Department 
into the military chain of command, which is so integral to 
have quick, efficient operations on the ground?
    Admiral Winnefeld. I wouldn't want to paint it in that 
negative of a light. I think it is appropriate that for an 
ongoing combat operation, where General Petraeus is 
responsible, has the authority and responsibility on both sides 
of that border, for whatever we can do to make that fight go 
the way it needs to go. A real no kidding, ongoing fight, that 
it is appropriate for the military from ODRP to General 
Petraeus up through the chain to have the responsibility, and 
therefore the resources in order to do that. I would add that 
Ambassador Patterson is a very important piece of this, and 
that she is the chief of mission, she understands what is going 
on on the ground, and she will have a direct influence on how a 
PCCF would be employed. But we believe that General Petraeus 
should have the authority to use these funds.
    Mr. Hunter. Unilaterally, through his chain of command.
    Admiral Winnefeld. I think ``unilaterally'' is the wrong 
word.
    Mr. Hunter. The Department of Defense down from the 
President, with that military chain of command.
    Secretary Flournoy. The way I would say it is that the best 
way to align the authorities, responsibilities, and funding is 
to make PCCF a title 10 authority. And I don't think there is 
any disagreement between the Department of Defense and 
Department of State on that at this time, particularly in the 
urgent period of the 2009 supplemental. And I think everybody 
recognizes that alignment is what is needed to be operationally 
responsive on the ground, particularly in a battle zone. The 
closest analogy is the kind of authorities we have provided to 
build and support the Afghan National Security Forces and the 
Iraqi Security Forces. We need something comparable here on 
both sides of the Afghan border to be effective.
    Mr. Hunter. Mr. Ambassador.
    Ambassador Boucher. I think I would agree with the way 
Under Secretary Flournoy put it. The reason we approached this 
in this manner was to provide a more direct route to have an 
urgent, because of an urgent need. I do have to say that all 
these programs are carried out with a lot of consultation, a 
lot of effort between the departments, and it comes together in 
the country team that Ambassador Patterson runs in Pakistan. So 
I don't think we----
    Mr. Hunter. Not when it comes to buying things like Naval 
Beach Groups (NBGs) or getting them Intelligence, Surveillance, 
and Reconnaissance (ISR). There is no State Department involved 
with buying magazines for AK-47s for them.
    Ambassador Boucher. No.
    Mr. Hunter. No, there isn't. And should there be?
    Ambassador Boucher. No, I don't think so. There is one 
place to buy those, and that is the people who make them.
    Mr. Hunter. Thank you.
    Ambassador Boucher. Our job, I think, is just to say, look, 
as we approach counterinsurgency, here is how we need to work 
it with the government, and we all work it together.
    Mr. Hunter. Thank you, Mr. Chairman. Thank you, panel.
    The Chairman. Thank you. Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman. Thanks to the three 
of you for being here today. I appreciate your service, and 
certainly what you are trying to do with respect to Pakistan. I 
have a very simple question at the outset. Can you lay out, and 
I guess Madam Secretary, that might be your job to do this, can 
you lay out not what our goal is in Pakistan, or what our goals 
are, but what is our strategy as it stands today?
    Secretary Flournoy. I think our strategy is to invest in 
strengthening the civilian government of Pakistan and the 
institutions of Pakistan so that they can meet the basic needs 
of their people and render Pakistan a secure, stable country 
that is inhospitable to insurgency and terrorism. It is about 
building the Pakistanis' capacity to address their own 
challenges. They cannot do it alone. They need our help. And 
they need our help urgently. And when they start to take--when 
they take steps in the right direction, we should be there 
supporting them to the fullest extent possible.
    Mr. Loebsack. And to what extent does the strategy then 
include components that are beyond Pakistan's borders, 
Pakistan's relationship to India and to other countries around 
Pakistan? How does that play into the strategy, if you will?
    Secretary Flournoy. It is very much a regional approach. 
We, as the Ambassador suggested, we have an important role to 
play in trying to help reduce tensions between Pakistan and its 
neighbors, Pakistan and Afghanistan. We are about to hold 
another trilateral session in Washington with the President 
coming soon, Pakistan with India. Hosting things like the 
donors conference. Getting regional stakeholders to realize 
that they have a stake in a stable and prosperous Pakistan.
    Mr. Loebsack. There is mention in your testimony, and I was 
not here for your oral remarks, I apologize, you may have 
mentioned it, Reconstruction Opportunity Zones. Can you 
elaborate on what that is? Is this something similar to the 
PRTs in Iraq and Afghanistan? And I should mention, too, that 
Congressman Marshall and I agree that in Afghanistan they 
shouldn't probably be called reconstruction zones, because they 
start from scratch more often than not. Is this what we are 
talking about PRTs, but in the case of Pakistan something 
different, a little bit different?
    Ambassador Boucher. No, this is a different, it is a 
regional trade benefits program for border areas of Pakistan 
and all of Afghanistan so that products that they make in those 
areas would be able to enter the United States duty free. It is 
to create an opportunity for businesses to set up there, 
manufacturing to set up there, and basically to get kids not to 
pick up a gun and pick up a job or a wrench instead. 
Legislation has been introduced in both the House and the 
Senate, the bill on the House side sponsored by Congressman Van 
Hollen and I think several others. I am sorry, I don't know the 
whole list. But we are hoping that the Congress will pass this 
legislation. The Pakistanis have been looking forward to this. 
And feasibility studies say there are actually real 
manufacturing opportunities in these border areas, 
opportunities to get kids jobs, and get them out of the 
fighting business.
    Mr. Loebsack. So you are talking about the FATA, you are 
talking about the border areas with Afghanistan?
    Ambassador Boucher. Exactly.
    Mr. Loebsack. Okay. And one last question on interagency 
coordination, that dreaded phrase that no one likes. What is 
happening with respect to--because we have had a number of 
questions already. That is one advantage I have of being among 
the last to ask the questions, I get to hear a lot of my 
colleagues' questions and your responses. But it seems as 
though that has not been resolved yet perhaps, the whole idea 
of interagency coordination. Is there any one particular 
individual, or how is that working with respect to Pakistan and 
our strategy?
    Secretary Flournoy. Well, as someone who is in the middle 
of it, I will actually say it is working quite well. At the 
Washington level, you know, the deputies committee, the NSC 
process is putting a lot of time and attention. I mean, I am 
very pleased to say that when we finished the strategy review 
we didn't just put it on a shelf. We immediately turned to, 
okay, how are we going to get this implemented? And that is why 
we are here today. This is part of getting the strategy 
implemented.
    Mr. Loebsack. So it is in the NSC principals?
    Secretary Flournoy. At the policy, sort of grand policy 
oversight level, yes. But then if you go down a level, 
Ambassador Holbrooke has developed a very close relationship 
with the ambassadors in the region, with General Petraeus as 
the regional combatant command (COCOM). He is working this 
interagency coordination piece at the regional level. And then 
when you go down on the ground and you look at the embassies, 
in Afghanistan there is a direct coordination between the 
ambassador and the military commander on the ground. In 
Pakistan you have an interagency country team that is working 
these issues. So it is happening at multiple levels. And for 
the most part, I have been actually quite impressed with how 
well it is working so far.
    Mr. Loebsack. Okay. Thank you. I see my time has expired. 
Thank you, Mr. Chairman. Thank you.
    The Chairman. Mr. Langevin will be the last questioner 
unless there is someone that has additional questions on a 
second round. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Thank you, Secretary 
Flournoy and Admiral Winnefeld and Ambassador Boucher for your 
testimony here today. There have been many news reports about 
the troubling level of support that the Pakistani intelligence 
services, the Inter-Services Intelligence (ISI) has given to 
Taliban forces. If part of our strategy is to end violence in 
the region is to help train the Pakistani Army on how to 
develop and fight counterinsurgency-style warfare, how does the 
ISI's close relationship to Taliban forces affect the trust and 
ability of our forces to train and support their Pakistani 
partners? And furthermore, what steps is the U.S. taking to 
reduce the ISI's support of Taliban forces? And what challenges 
does the U.S. face with ending their relationship?
    Admiral Winnefeld. The ISI is an organization like any 
organization, and it has a hard time changing. I can speak from 
personal experience in my own Department that we have gone 
through many changes over the years that have been difficult 
and painful. And they are going through a difficult and painful 
change right now. And I believe that they are going to succeed. 
I think we are seeing them succeed. General Kiyani brought in a 
new ISI chief, General Pasha, who has quickly replaced all 
except two of his two star subordinates inside the ISI 
headquarters. And we are starting to see the changes filter 
down throughout that organization. Now, does that mean they 
have completely changed? No. We do not necessarily believe 
that. It is going to take time for change to penetrate all of 
the different corners of that organization. But our sense from 
them is that they understand the need to change, the need to 
make a strategic shift away from some of their past policies. 
And we are confident that they are going to move in the right 
direction. Never as fast as anybody would ever want them to, 
but we believe that through the personal diplomacy that we have 
experienced between Admiral Mullen and General Kiyani and other 
interchanges between the U.S. Government and the Pakistani 
Government that they are going to get moving in the right 
direction.
    Mr. Langevin. Thank you. Now, there are reports today, 
someone discussed this already, that Pakistan is planning major 
troop movements from its borders with India to help fight the 
militants near the border with Pakistan. And while this of 
course is welcome, the Pakistani Army still remains really 
unprepared to fight counterinsurgency-style war. And throwing 
people at the problem isn't necessarily going to make it go 
away. So the question I have is does this move reflect a 
broader shift in the Pakistani military organization towards a 
more counterinsurgency-focused mission? And also what are we 
planning on doing beyond training to help Pakistan bring a 
whole government approach to its security efforts?
    Secretary Flournoy. I think this is exactly the kind of 
moment that makes the argument for the PCCF authority, in that 
it is a specific situation where we are getting specific 
requests for assistance, and we would like to be able to 
respond urgently, quickly, to say, yes, here is the equipment, 
training, whatever you need to be more effective. Part of the 
PCCF authority is specifically designed to help train the 
Pakistanis in the civil and military aspects of 
counterinsurgency, not just the clear piece, but the hold and 
build. What do you actually need to do with and for the 
population to actually consolidate security gains once you have 
cleared an area to protect the population, to get them on your 
side so that the insurgents don't return to that area. That is 
very much part of what this program would enable us to do. So I 
think the particular situation now is very much an argument for 
trying to get this kind of program in place.
    Mr. Langevin. Thank you. That is all the questions I had. I 
am hopeful that we can provide the right support to make these 
things reach fruition as we intended. I think ironically, the 
Taliban moving into Buner was a real wake-up call to the 
Pakistani Government, and also the population as a whole. And 
we may have seen, hopefully, the shift that will allow some of 
our efforts, in coordination with the Pakistani Government, to 
be successful in turning this thing around in undermining the 
Taliban. So thank you very much for your testimony. With that, 
Mr. Chairman, I yield back.
    The Chairman. Thank you very much. Is there any further 
questions? If not, for the panel we thank you for being with 
us, for your excellent testimony. We look forward to seeing you 
again.
    [Whereupon, at 3:40 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                             April 29, 2009

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 29, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 53208.001
    
    [GRAPHIC] [TIFF OMITTED] 53208.002
    
    [GRAPHIC] [TIFF OMITTED] 53208.003
    
    [GRAPHIC] [TIFF OMITTED] 53208.004
    
    [GRAPHIC] [TIFF OMITTED] 53208.005
    
    [GRAPHIC] [TIFF OMITTED] 53208.006
    
    [GRAPHIC] [TIFF OMITTED] 53208.007
    
    [GRAPHIC] [TIFF OMITTED] 53208.008
    
    [GRAPHIC] [TIFF OMITTED] 53208.009
    
    [GRAPHIC] [TIFF OMITTED] 53208.010
    
    [GRAPHIC] [TIFF OMITTED] 53208.011
    
    [GRAPHIC] [TIFF OMITTED] 53208.012
    
                                  <all>

</pre></body></html>
